Washington, D.C. 20530

December 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Jane Doe v. United States of America,
S.Ct. No. 20-559
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 26, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on January 6, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0559
DOE, JANE
USA

MELANIE L. BOSTWICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
COLUMBIA CENTER
1152 15TH STREET, NW
WASHINGTON, DC 20005-1706
202-339-8483
MBOSTWICK@ORRICK.COM
MAYA M. ECKSTEIN
HUNTON ANDREWS KURTH LLP
RIVERFRONT PLAZA, EAST TOWER
951 EAST BYRD STREET
RICHMOND, VA 23219
804-788-8788
MECKSTEIN@HUNTONAK.COM
BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
BRIAN R. MATSUI
MORRISON & FOERSTER LLP
2000 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
202-887-8784
BMATSUI@MOFO.COM

MICHAEL J. WISHNIE
JEROME N. FRANK LEGAL SERVICES
P.O. BOX 209090
NEW HAVEN, CT 06520-9090
203-436-4780
MICHAEL.WISHNIE@YALE.EDU

